<html>
<title> - OVERSIGHT OF THE ATF NATIONAL CANINE DIVISION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


             OVERSIGHT OF THE ATF NATIONAL CANINE DIVISION

=======================================================================
  
                                 HEARING

                               BEFORE THE
                               
                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2018

                               __________

                           Serial No. 115-63

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


          Available via the World Wide Web: http://govinfo.gov
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-410                     WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a> 
          
         
          
          
          
                       COMMITTEE ON THE JUDICIARY

                              ----------                              
                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
KEN BUCK, Colorado                   JAMIE RASKIN, Maryland
JOHN RATCLIFFE, Texas                PRAMILA JAYAPAL, Washington
MARTHA ROBY, Alabama                 BRAD SCHNEIDER, Illinois
MATT GAETZ, Florida                  VALDEZ VENITA ``VAL'' DEMINGS, 
MIKE JOHNSON, Louisiana                  Florida
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Georgia
KEITH ROTHFUS, Pennsylvania

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                             JULY 16, 2018

                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     1

                               WITNESSES

Thomas Brandon, Deputy Director, National Canine Division, Bureau 
  of Alcohol, Tobacco, Firearms, and Explosives
  Oral Statement.................................................     3

 
             OVERSIGHT OF THE ATF NATIONAL CANINE DIVISION

                              ----------                              


                         MONDAY, JULY 16, 2018

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 9:37 p.m., at the 
Warren County Government Center, 220 N. Commerce Avenue, Front 
Royal, Virginia, Hon. Bob Goodlatte [chairman of the committee] 
presiding.
    Present: Representative Goodlatte.
    Also Present: Representative Comstock.
    Staff Present: Jason Cervenak, Senior Counsel; Scott 
Johnson, Professional Staff Member; and Joe Graupensperger, 
Minority Counsel.
    Chairman Goodlatte. Well, thank you, Tony. I know how 
important this facility is to Warren County, both from an 
economic development standpoint and for the great people who 
work there.
    So, with that, the Judiciary Committee will come to order. 
And we welcome everyone this morning to the committee's 
oversight of the ATF National Training Division. And I will 
begin by giving an opening statement.
    I want to welcome everyone to today's field hearing in 
Front Royal, Virginia, located in the beautiful Shenandoah 
Valley. I want to thank Congresswoman Comstock for joining me. 
And I want to thank the Warren County Government Center for 
hosting this very important hearing on oversight of the Bureau 
of Alcohol, Tobacco, Firearms, and Explosives' Canine Training 
Center, an integral part of the National Canine Division.
    The ATF National Canine Division trains explosives- and 
accelerant-detection canines for Federal, State, and local and 
international law enforcement and fire investigation agencies. 
Since 1990, the ATF has trained over 900 explosives-detection 
canines, more than 200 accelerant-detection canines, and has 
trained canine teams for 22 international countries. In 
addition, the training center has imprinted approximately 3,800 
Department of Defense military working dogs from March 2009 
through December 2017.
    Since 2012, the ATF canine center has been located in the 
Sixth District of Virginia, which I have been proud to 
represent for the past 26 years, although not all those 26 
years here in Warren County in Front Royal. I have had the 
opportunity to visit the training center and see firsthand the 
amazing capabilities of our four-legged friends. I even hosted 
the dogs at an event in the Rayburn House Office Building at 
the Capitol in Washington, D.C., to showcase their talents. I 
have been proud to represent this world-class training facility 
during my tenure as chairman of the Judiciary Committee.
    These canines are not just serving the ATF. Many of these 
dogs trained by the ATF end up serving with our State and local 
law enforcement partners, and, of course, they serve all of us 
as citizens. They train alongside their handlers at a facility 
a few miles down the road from here that we will have the 
opportunity to visit immediately after this hearing.
    It is not only our State and local partners that benefit 
from the center but our international partners as well. It 
truly is a world-renowned program, a program that has been very 
productive and successful throughout the years. In fact, in 
recent months, ATF-trained canine teams aided in a number of 
high-profile investigations, including the Austin bombings and 
in the aftermath of the Sante Fe, Texas, school shootings.
    It is because of the success of this center that I am 
troubled about the desire of some of my colleagues to transfer 
the training facility from its home in Front Royal to 
Huntsville, Alabama. I realize the cynics may claim that I am 
being territorial, but I firmly believe that moving this center 
would not only be a colossal waste of taxpayer money but also 
put public safety at significant risk.
    In 2016, the Senate Appropriations Committee directed ATF 
to examine the feasibility of moving the canine training and 
kennel facilities from Front Royal to Redstone Arsenal in 
Huntsville, Alabama. ATF completed a preliminary feasibility 
study in 2016. The study found that building a comparable 
canine training and kennel facility at Redstone would cost 
millions of taxpayer dollars, require intensive talent 
recruitment for the new facility, and result in the loss of key 
National Canine Division personnel due to the move. Altogether, 
the study concluded that the move would substantially disrupt 
continuity of operations and mission readiness.
    Thereafter, ATF commissioned an independent environmental 
evaluation of the proposed Huntsville site by AECOM Technical 
Services, Incorporated. In November 2017, AECOM provided ATF 
with an environmental evaluation of the proposed Huntsville 
kennel site. The study focused on three categories: surface 
soil assessments, noise evaluation, and air dispersion 
modeling. After reviewing the findings of the study, the ATF 
concluded that, quote, ``our experts strongly recommend that 
the facility remain in its current location.''
    ATF concluded that the levels of trace explosive 
contaminants in the soil posed a significant problem for canine 
performance and reliability. Specifically, the ATF stated that 
the levels of explosive contaminants in the soil, quote, 
``present obstacles that are likely insurmountable to the 
initial imprinting of the canines to detect explosives and 
accelerants,'' end quote.
    ATF elaborated that, quote, ``initial imprinting is 
absolutely essential to ATF's well-established and 
internationally recognized training regimes.'' And the 
contaminants at Redstone Arsenal raise concern that the canine 
may begin to associate the environmental explosive contaminants 
with the target odor. Put simply, you can't train a bomb-
sniffing dog at a place where everything smells like a bomb.
    The study also contained a noise evaluation which focused 
on the effect of the nearby active explosive range, finding 
that blasting activities at Corkern Range have a clear 
potential to affect dogs at the proposed kennel site, 
especially if the dogs are outdoors at the time of the blasting 
activity. Pointing out that ATF canines are outdoors for 
approximately 6 hours of their 8-hour shift, ATF concluded that 
keeping the canines indoors during blasting is impractical and, 
therefore, the blasting activities could further affect canine 
training.
    Altogether, after reviewing the study, cost, and other 
considerations, the ATF concluded moving the NCD from Front 
Royal, Virginia, to Huntsville, Alabama, would significantly 
diminish and perhaps irreparably damage the canine program and 
its mission to protect the public and fight violent crime.
    At this time, I would like to ask unanimous consent to 
place the report by the ATF on the proposed move into the 
record. And, without objection, it will be made a part of the 
record.
    Irreparable damage is a cost too high to pay when it comes 
to the vital public safety duties these canines perform. This 
facility must remain right here in Front Royal. The proposed 
move could completely wreck ATF's ability to produce reliable 
explosive-detecting dogs.
    Thank you, Deputy Director Brandon, for joining us today to 
discuss this vital issue, and I look forward to your testimony.
    Next, as is the custom of this committee, we will swear in 
the witness. So if you would please raise your right hand.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record note that the witness answered in the 
affirmative.
    Deputy Director Brandon has served as Deputy Director since 
April 1, 2015. In this capacity, he oversees the Bureau and its 
important jurisdiction enforcing firearms and explosive laws 
and regulations that protect communities from violent criminals 
and criminal organizations.
    Director Brandon began his ATF career in 1989 as a special 
agent in Detroit. Since then, he has served in numerous 
leadership positions across the United States and abroad. His 
distinguished career in public service not only includes his 
tenure with the ATF but also with the United States Marine 
Corps.
    Thank you for your service.
    Your written statement will be entered into the record in 
its entirety, and we ask that you summarize your testimony in 5 
minutes.
    Welcome, Director.

 TESTIMONY OF THOMAS BRANDON, DEPUTY DIRECTOR, NATIONAL CANINE 
 DIVISION, BUREAU OF ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES

    Mr. Brandon. Thank you, Mr. Chairman.
    And, Chairman Goodlatte and Congresswoman Comstock, thank 
you for the opportunity to appear before you regarding ATF's 
National Canine Division here in Front Royal, Virginia.
    As mentioned, ATF has been training dogs here for Federal, 
State, local, and international law enforcement and fire 
investigation agencies since 1995. The center is located on 250 
acres of pristine land on the edge of the Blue Ridge Mountains 
near Front Royal in the northern Shenandoah Valley. We share 
the Front Royal campus with our partners from the U.S. Customs 
and Border Protection, which has allowed us to realize 
efficiencies by combining our resources and expertise.
    We frequently make reference to the environment here as 
pristine, and, undoubtably, it is a beautiful location. But it 
is also no coincidence that our facility is located in such a 
clean place. This is because, in order to imprint our dogs to 
detect minute amounts of ignitable liquids and explosives 
materials, it is necessary to train dogs in an environment that 
is entirely free of accelerant and explosive residue.
    From start to finish, the trainers, handlers, and staff are 
meticulous in their handling of these materials in order to 
maintain full control of the imprinting process. ATF forensic 
chemists and canine experts employ a strict regimen to ensure 
canines are trained to detect target odor only and not 
secondary scents in the soil or otherwise.
    Contamination of any type has a significant impact on the 
training, confidence, and reliability of the canine. Trace 
contaminants found in the soil become problematic during 
training when canines being to associate the environmental 
explosives constituents with the target odor. If the 
environmental odor and target odor become one, the canine will 
no longer detect the target odor when transferred to another 
environment, and the canine becomes unreliable.
    I cannot overemphasize how important it is to prevent 
cross-contamination when imprinting and training our canines.
    ATF has trained approximately 1,200 canines for 102 U.S. 
law enforcement agencies and 22 international partners at the 
Front Royal campus. In 2017 alone, the National Canine Division 
in Front Royal trained, recertified, and/or tested 
approximately 751 explosive and accelerant actively deployed 
detection canines.
    In addition, ATF's Front Royal campus is one of the few 
facilities with the capacity and expertise to train U.S. 
military working dogs to combat the escalating threat of 
homemade explosives and improvised explosive devices. Since 
2009, we have trained approximately 3,840 military working dogs 
for the U.S. military and NATO.
    Bombing incidents, such as the tragic events in Austin, are 
an excellent example of why the trace odor detection 
capabilities of the canines are critical to law enforcement 
operations. By their nature, bombing scenes are covered with 
debris. Some of the debris is critical evidence, and some is 
just the result of the blast. To a human eye, it all appears 
all the same, but not to an ATF canine.
    The ATF canines deployed in Austin were able to rapidly 
differentiate between the two, ensuring the collection of only 
those items of evidentiary value and allowing forensic lab 
examiners to focus on critical evidence examination and not 
waste valuable investigative time on extraneous debris.
    Mr. Chairman and Congresswoman Comstock, we are very proud 
of our facility here in Front Royal, and it is without 
exaggeration that I can say it is one of the best canine 
facilities in the world. ATF canine teams provide a critical 
resource both in preventing and countering explosives and arson 
incidents and investigating such incidents when they occur. 
Their capabilities are unmatched.
    And I welcome your questions about our canine program on 
the Front Royal campus. Thank you.
    Chairman Goodlatte. Thank you very much, Director Brandon.
    I note that you have a couple of your employees here who I 
got introduced to before we came in. I wonder if you might let 
their handlers introduce them and tell everyone here a little 
bit about them.
    Mr. Dawkins. I'm Special Agent Randall Dawkins out of the 
Dallas Field Division. This is ATF canine Abel. He just turned 
6 in June. And his last big deployment was the Austin bombing, 
which the Director just referenced.
    Chairman Goodlatte. So he's a hero of the Austin bombings--

    Mr. Dawkins. Yes.
    Chairman Goodlatte [continuing]. Solving that and catching 
that perpetrator.
    Mr. Dawkins. He played a critical role, and we're glad to 
be able to do so.
    Chairman Goodlatte. Thank you.
    Mr. Hodnett. Good morning. My name is Mike Hodnett. I am 
the canine handler in Baltimore. This is my partner, Tara. 
She's my second dog. She just graduated school about 2\1/2\ 
weeks ago, so she's fairly new out in the field. She's about 2 
years old.
    Chairman Goodlatte. She's brand-new, and she was trained 
here in Front Royal?
    Mr. Hodnett. Absolutely, sir. Yes.
    Chairman Goodlatte. Very good. Very good.
    Director Brandon, how long did it take to get the ATF 
canine center here in Front Royal to the point where you are 
right now?
    Mr. Brandon. Mr. Chairman, Congressman Wolf, at the time, 
gave ATF the funds to build about a 21,000-square-foot facility 
to where we would do the training and house our personnel. And 
then, around 2000, 2001, Congressman Wolf ensured we had the 
money to build a state-of-the-art kennel that can house 100 
canines.
    Chairman Goodlatte. Excellent.
    And what are the benefits of having the ATF facility here 
in Front Royal?
    Mr. Brandon. Well, it's in the national capital region, Mr. 
Chairman. There's a lot of synergy that goes on with working 
with other agencies. I mean, we have our other Federal partners 
that rely on us--the Capitol Police, the Pentagon Police, the 
Park Police, intelligence agencies, DOD, the military and their 
civilian agencies. And so you're able to collaborate and be in 
close proximity.
    And the other thing, an international airport, Dulles, 
between D.C. and being here, is an excellent resource to be 
able to fly in and out, both domestic and international 
flights.
    And I would be remiss if--all the goodwill that the people 
of Front Royal, Warren County, about 120 businesses that have 
taken years. They welcome our staff and our trainers to come to 
their businesses, parks, facilities. And that enables us to 
have such great dogs, when they're out in the field doing the 
real work, that I would say the people here of Front Royal and 
Warren County, they equally should feel proud. And we're proud 
of them, because when they see these dogs deployed, and our 
dogs have come to their businesses, and they allowed them in so 
graciously, it wouldn't happen if they weren't such loyal 
Americans.
    Chairman Goodlatte. Well, thank you. I think they are very 
proud of this facility. And many of them know a good bit about 
it, but probably very few of them know the extent of this 
facility's reputation, not just in the United States but around 
the world.
    You mentioned the Dulles International Airport. That's 
important because law enforcement organizations around the 
world send people here to Front Royal to learn how to handle a 
dog that they are getting this facility to train and to take 
and help prevent terrorist attacks, fight crime in places 
across the globe.
    Can you elaborate on that a little bit?
    Mr. Brandon. Yes, Mr. Chairman. And, to your point, yes, 
whether countries in the Middle East that we have trained or 
Southeast Asia, around the globe, this canine facility here in 
Front Royal, ATF's National Canine Division, is world-renowned.
    And it is because of the mission of--our dogs are trained 
to detect minute amounts of explosives material, and here in 
the United States for accelerant-detection canines, for arson 
scenes as well. But for internationally it is the explosive-
detection canines. You just don't find that anywhere else. So 
they wouldn't waste their time coming--and I know the State 
Department sees the results. They hear about it. And, of 
course, it creates even more demand for the excellent program 
we have here. And Dulles Airport is critical for that.
    Chairman Goodlatte. And you mentioned the great 
partnerships that you have with the local businesses that help 
support this facility and its employees. It takes a while to 
establish those kinds of relationships, to find the right 
people to provide the right services and products that you need 
to make this facility run properly, does it not?
    Mr. Brandon. Yes, sir. It's taken decades. And it's the old 
trust, you know, that they trust us and we trust them. And 
there's, I would say, I guess, just the joint appreciation, 
that it's a win-win.
    Chairman Goodlatte. And if this facility were moved 
somewhere else, it would have to start all over again in terms 
of that kind of relationship with important local vendors.
    Mr. Brandon. That is true, Mr. Chairman.
    Chairman Goodlatte. All right.
    You also mentioned the co-location with U.S. Customs and 
Border Protection, which allows you to share resources and 
achieve savings. Can you say a word about that?
    Mr. Brandon. Yes, sir.
    Like I said, it's 250 acres of pristine, gorgeous property. 
And it's gorgeous out here. But we are able to share cost. We 
have a contract that we reimburse them for a part of the 
security and the maintenance of the roads, but that we own 
those two buildings that I said Congressman Wolf got us the 
money for. But we're able to be on that land which we don't 
own, and CBP maintains and prorates the cost for our use of it.
    Chairman Goodlatte. So we didn't invite Customs and Border 
Patrol to come today, but they have another facility here as 
well. I haven't been in it, but it's just down the road. And 
they also train canines there, and they train them for the 
purpose of customs enforcement so that, when goods and 
sometimes individuals come into the country off of 
international flights or at ports, those canines have a role to 
fulfill there, too, as well.
    Do you know a little bit about that?
    Mr. Brandon. Sir, you summarized basically what I know, but 
that they have a vibrant program, and they have--and it's my 
understanding their facility suits them perfectly.
    Chairman Goodlatte. Well, I have some more questions, but I 
know Congresswoman Comstock does as well.
    So let me just first say that I really appreciate 
Congresswoman Comstock, who represents the adjoining area in 
the 10th Congressional District, which includes Frederick 
County and Winchester just to the north and Clarke County and 
then on east in towards Fairfax County. And I know that some of 
the people who work at this facility and probably some of the 
businesses who support the facility are in her congressional 
district.
    So I'm very grateful that she came today. She's not a 
member of the Judiciary Committee, but she is a very valued 
Member of Congress. And I appreciate her being here today to 
show her concern about this issue as well.
    So I recognize her at this time.
    Mrs. Comstock. Well, thank you, Mr. Chairman. And great to 
be with you today.
    Since I had worked with Congressman Wolf as a staffer back 
in the '90s--I worked with him from '90 to '95, so I was able 
to serve this area when he represented this area, and I know 
about, you know, his interest and smart things that he did for 
this area but also in the national interest.
    And, you know, as we looked at this, and you're saying you 
have interests who want to move it away, it reminded me of when 
I worked for the Congressman at that time. And, actually, we 
were in the minority at that time, as Republicans. But a very 
powerful Senator, Senator Byrd in West Virginia, wanted to move 
the CIA to West Virginia. And that was a project that I worked 
on with Congressman Wolf, to keep the CIA in Virginia. It's 
actually in my home precinct where I live now. I live right by 
the CIA.
    So a lot of similarities here, where there have been a lot 
of investments made here and very important relationships and 
expertise that you have here and, you know, support in the 
community. And it really is, sort of, if it ain't broke, why we 
would be trying to fix it. You know, this has really been 
working well. You have the expertise and the leadership here. 
You have the support, as was mentioned, just all of the 
adjoining assets that you have, from Dulles Airport--which I'm 
certainly very interested in maintaining that and continuing to 
be able to support the many needs that we have there. So I 
really do appreciate all that you've put together here.
    So I did want to ask about, you know, sort of, the 
relationships also with the surrounding counties and some of 
that, just in terms of how those have built up also.
    Mr. Brandon. Yes, ma'am. Thank you for the question.
    You know, our relationships for the accelerant-detection 
canines and the fire marshals in the surrounding area, in the 
capital region, Maryland and West Virginia and Virginia, really 
enables our staff to train the canines. Because of the great 
relationships, there are numerous scenes that reduce cost 
because you're not having to travel all around the country.
    And when the dogs are going through training, it's through 
those relationships that we've built with surrounding counties 
and the surrounding--or the capital region that enables us to 
deliver well-trained explosive-detection canines and 
accelerant-detection canines.
    Mrs. Comstock. And can you speak a little bit about why 
this canine program is in such high demand and why we wouldn't 
want to have disruption for this and build up, you know, and 
having to rework all of this and interrupting this at all.
    Mr. Brandon. Thank you, ma'am, for that question.
    It is the uniqueness of ATF explosive-detection canines, 
and I keep reiterating the minute level of explosives that they 
can be found. So they're used for security sweeps, but they're 
used--like, in the Austin bombing, when they had the FedEx 
facility, which all of a sudden you have all these--one device 
that detonated, another one that was not detected yet. Our 
dogs--and I'm proud to say, you know, our handler and the dogs 
here were able to clear a scene and restore public confidence, 
in working with our law enforcement partners from the Austin 
P.D. and the FBI and the Texas Rangers, is they realized the 
expertise of these dogs. Some dogs are trained to detect gross 
explosive weight, you know, and here they're able to go even 
smaller. And that's what's unique about our program.
    And I guess another story would be, November of 2017, in 
New Jersey, there was a car stop. And it was a request, I 
believe, of the State police. And our dog hit on the trunk of a 
car. And within that trunk were two firearms that would've 
never been detected because of such a low level. And you're 
talking about a firearm that was just discharged. Those guns 
turned out to be murder weapons.
    And another incident I can tell you, in 2010, I was on 
scene in Detroit. Officer Huff, God rest his soul, was shot and 
killed. Three other officers were hit. And I remember calling 
our explosive-detection canine to the scene at the request of 
then the deputy chief of Detroit that was on scene with me. And 
rounds weren't found in the high grass around the area, and our 
dog within 2 minutes detected those casings.
    And I'm proud to say that we were a participant with 
Detroit P.D., and that perpetrator is doing three life 
sentences. And we were proud to say that we used our explosive-
detection canine to discover those casings that were used in 
the shooting, and also our laboratory in Ammendale, Maryland, 
that provided those resources to the P.D.
    Mrs. Comstock. And maybe since I am--I haven't been, you 
know, on the committee, so I'm a little--well, I guess we know 
why they want to move it. But, you know, as we looked at the 
CIA and that move, you know, we realized all the disruption it 
would have. So could you maybe speak to the kind of disruption 
that would happen if it were moved to the entire program as 
well as to the expertise that has been really stood up here in 
this area and trying to replicate that?
    Mr. Brandon. Thank you, ma'am, for the question.
    Like the chairman said, I know that we would lose our 
people. We have trainers that have decades of experience here. 
Again, what we've established over two decades with the 
community, you know, and the trust, it's working well. And 
then, you know, the subject-matter experts that wrote the 
executive summary for me and that's been shared feel that it 
would take our program significantly back.
    And that's why I gave you stories of real-life examples 
of--this isn't a game. This is real life-and-death situations 
and catching killers, from the bomber in Austin to the case I 
just mentioned in Detroit. And I couldn't sit here in front of 
you and lie to you and say, yeah, that there won't be a 
disruption.
    Things are going well here. I'm very proud of our National 
Canine Division and the employees. And I'm also very proud to 
read how the community engages us--because that's what I was 
told, but it was nice to read in the papers.
    So it would set us back, based on what I've been told by my 
subject-matter experts.
    Mrs. Comstock. No, I think it's pretty clear. And I think 
the record does reflect that this would also be a cost to the 
taxpayer. So we have something that is working well, and we 
don't need to be changing this when we've developed this 
expertise.
    And having been privileged to work at the Justice 
Department, also, after working for Congressman Wolf, I know 
you appreciate how, when you build up this expertise and that 
kind of trust, that is not something that's easily replicated. 
And, you know, so I certainly want to work with the chairman on 
making sure that we keep this here.
    So I appreciate all you're doing to let the community know 
about the importance of this. And I think the fact that 
everyone's here today reflects their understanding of the 
importance of this, too, to the region.
    And I just thank you for all the good work that I know that 
you have been doing here for years.
    Mr. Brandon. Thank you, ma'am.
    Mrs. Comstock. And I yield back.
    Chairman Goodlatte. Thank you.
    We'll do a second of round. I have a number of additional 
questions I want to make sure we get on the record.
    You mentioned the Customs and Border Patrol. How does the 
center's current location benefit other Federal agencies in the 
region?
    Mr. Brandon. Well, sir, like I mentioned, we provide 
services to the Marshals Service, to the Capitol Police, the 
Pentagon Police, military intelligence agencies. So being here 
allows for collaborative efforts on any--even research. And so 
location matters when you're trying to get various agencies 
together to address any public safety concerns.
    Chairman Goodlatte. And the ATF recently conducted an 
environmental study. Can you briefly share the outcome of that 
study?
    Mr. Brandon. Yes, sir. The environmental study came out of 
the feasibility study where our subject-matter experts 
recommended the environmental study. And AECOM did it, so it's 
independent of ATF. We didn't want to have any bias in putting 
our thumb on the scale.
    And so, as you mentioned, the soil analysis. They took 
eight samples, and all of them, every one of them, had 
contaminants.
    Chairman Goodlatte. And this is in Alabama.
    Mr. Brandon. Correct, sir.
    Chairman Goodlatte. Redstone in Huntsville.
    Mr. Brandon. Yes, sir. And we were complying with what we 
were ordered, you know, in 2016 to do.
    The environmental study was done in September of 2017, and 
we got the report November of 2017. And then our subject-matter 
experts looked at that, and what the--AECOM, they deferred to 
ATF subject-matter experts when it came to soil contaminants. 
They said that it wasn't a risk to the health and safety of our 
employees or the canines. However, our forensic chemists, who 
helped establish this fabulous canine program from such minute 
levels, that's where you say you have a target odor and an 
environmental odor, and that they said it would be not a good 
location, based on the results of an independent environmental 
study, for training our dogs.
    Chairman Goodlatte. And what is the role of these dogs 
after some of the tragic mass shootings that we've had around 
the Nation?
    Mr. Brandon. Well, like, Mr. Chairman, in the Parkland 
shooting, I'm recalling that our dogs were used to help sweep 
the school, you know, and detect any IEDs and so forth.
    So they're a readily welcomed asset to our State and local 
partners because of the unique capability of trace amount of 
explosives, minute amount of explosives material. And if you're 
smelling a--if the dog is smelling a locker--I will give you a 
recent example. I was told one of our dogs, even--there was a 
dead body, not in the shooting incident. But what the dog 
alerted to, because of its excellent training here in Front 
Royal in a pristine environment without contaminants, the 
casing was under the dead body, and the dog's training allowed 
it to bypass the odor of a decayed body. And when the body was 
removed, the casing was under the body.
    So I just use that as another story to just sell--or state 
why a pristine environment matters. It produces results. And 
the environmental study on the soil analysis, their data 
defaulted to us to make a determination, us being my subject-
matter experts, a forensic chemist and our long-term canine 
trainers, and they said that would have a detrimental effect on 
training. It would make the dogs incapable of performing.
    Chairman Goodlatte. So a major part of their function is to 
be able to distinguish various odors related to gun powder and 
explosives from everything else around them. And if you're at a 
facility that specializes in blowing things up and testing 
explosives and so on, that's going to be everywhere. And if 
you're trying to train the dog to look for one shell casing or 
one IED or whatever the case may be, that's going to cause 
major confusion in the training process before you ever get to 
a point where the dog is reliable, like our dog here was down 
in Austin, Texas.
    Mr. Brandon. Yes, sir. The dogs are trained to recognize 
six families of explosives. And, as I mentioned, the 
environmental study took eight samples, and in those samples 
were two of those six families. And to the point of it would be 
an environmental odor versus a target odor, and the dogs 
wouldn't be able to differentiate between the two, and it would 
make them ineffective.
    Chairman Goodlatte. We use the word ``imprinted'' when 
we're referring to these dogs. How are ATF dogs imprinted?
    Mr. Brandon. Mr. Chairman, before the dogs are even 
introduced to their handler, our canine specialists spend 6 
weeks imprinting them. And our forensic chemists work that 
there is pristine examples of the explosives material to 
imprint them. So that is a critical time of processing.
    And, again, it's in the report, but the word ``pristine'' 
is appropriate. In order to properly imprint the dog, you need 
a pristine environment. And we have been doing that here for 
decades in Front Royal.
    Chairman Goodlatte. Are there any savings to the taxpayer 
if the ATF canine center is moved to Huntsville?
    Mr. Brandon. Sir, the estimated cost for moving would be 
$40 million. The estimated cost for staying would be we 
wouldn't spend $40 million for moving.
    Chairman Goodlatte. That's a--that's a lot of money, even 
for the Federal Government.
    Mr. Brandon. Yes, sir.
    Chairman Goodlatte. If forced to move to Huntsville, can 
you guarantee that the canines would have the same reliability?
    Mr. Brandon. No, sir.
    Chairman Goodlatte. And, in your mind, can you think of any 
good reason to move the canine center to Huntsville?
    Mr. Brandon. You know, Mr. Chairman, when I came in in 
2011, former U.S. attorney and Acting Director, Mike Sullivan, 
a Republican, called me to say congratulations, and I asked 
him, you know, ``Do you have any advice?'' and he said, 
``Listen well and ask good questions.''
    So, when this originally came as a proposed moved, I kept 
an open mind and, I think, asked good questions. I wasn't 
prejudged to say no. But based on the information that has been 
presented to me by subject-matter experts at ATF that have been 
doing this with a passion for decades and an independent 
environmental study, I cannot see a reason.
    Chairman Goodlatte. We'll have the opportunity later to ask 
them personally, but what do you think your employees would say 
when asked if they like being here in Front Royal, Virginia?
    Mr. Brandon. Oh, hey, Mr. Chairman, they love being out 
here. I would love being out here, you know? I mean, so--I've 
never heard a complaint when saying, ``You're going to Front 
Royal, Virginia.''
    Chairman Goodlatte. Excellent.
    And the report I mentioned earlier indicates that there 
would be training difficulties associated with a move to 
Huntsville. Namely, there are explosive contaminants in the 
soil--I think we've covered that already.
    What about employees not wanting to move from Virginia to 
Huntsville, Alabama? If that were the case, you'd have to hire 
and train new employees, would you not?
    Mr. Brandon. Yes, sir. And like everywhere you have to 
recruit that subject-matter expertise, it's not easy to find. 
And so that would be another challenge that was documented by 
the subject-matter experts in the report.
    Chairman Goodlatte. Do you know of any canine training 
facilities anywhere where the canines are imprinted that are 
close to Superfund sites with soil contaminated with explosive 
materials?
    Mr. Brandon. No, sir.
    Chairman Goodlatte. It wouldn't work, would it?
    Mr. Brandon. That's what was included by the subject-matter 
experts. They detailed that, yes, sir, that you're correct. 
They said that would be problematic.
    Chairman Goodlatte. And I will yield to Mrs. Comstock again 
if she has any additional questions or comments.
    Mrs. Comstock. Sure. I would be happy to.
    You know, I do think, in terms of the move, I think it's--I 
imagine you have a fair amount of your employees with their 
expertise who are in two-earner families?
    Mr. Brandon. Ma'am, I believe so, but I don't have a 
specific----
    Mrs. Comstock. Yeah. I know that's something, when we were 
looking--and I think that's something common in corporate 
America now, where it is very difficult to often move families. 
And I moved--my dad worked for a company where they moved him 
around all the time. My mom was a teacher, and, you know, she 
just had to go wherever he was, and she would get a teaching 
job. But that's not the modern-day reality anymore. You can't 
just tell whoever the expert is to pick up and go. If, you 
know, they're married to a surgeon here who's at a hospital, 
chances are they're going to want to stay at the hospital. If 
they're married to--you know, if they have kids, like I was, 
who was a senior in high school, and my dad had to move, you 
want to stay. Dad traveled that year, so that was nice.
    But I do think that family disruption, I know that's 
something we looked at even, you know, from the CIA going from 
Virginia to West Virginia, but I think this is very--it would 
be very different. And because of the unique expertise here, 
that takes years to establish. And because you would lose a lot 
of that expertise moving, I do think--I think we've already 
established it, so I'm not really asking a question, but I'm 
just observing that that modern-day reality of two-earner 
families is probably something we should emphasize more to 
those who are trying to move. Because I think that makes it--I 
see nodding heads out there too.
    You know, right? Because that is the reality of families 
today. And to try and move and have that disruption, that's a 
loss of income for the families. You know, are the houses going 
to sell well or not? You know, I don't think the government has 
a--you know, my dad's company, if his house didn't sell right, 
they gave him a bonus, but I don't think we do that in the 
government, do we?
    So if you lose money on your house or you're selling your 
house at a bad time or something like that, that's not good 
either. So I think there's a lot of factors to the families and 
the workers involved that would be a loss to them, long term, 
and their employment.
    I think Congressman Wolf did a very good job here of 
finding a unique place to put this, develop that expertise for 
years. And to disrupt that at this point really does not--I 
haven't heard of any case--well, I know there may be others who 
want to make the case, but I can't see where that would make 
any sense.
    So I appreciate the details you've brought forward. And if 
there's maybe more on that front of how it would impact the 
families and how it would--I mean, the $40 million cost, it 
would cost us 40 million and wouldn't--I mean, that's a 
pretty--I can think of a lot of other things that we're looking 
to spend $40 million on in the Federal Government, not to 
mention the personal cost it would be to the families and the 
disruption there.
    So I think it is pretty clear here that we need to keep 
this expertise here and this great facility here. And I'm happy 
to be here today and work with the chairman in any way we can 
to do so.
    But if you have any comments on any of that----
    Mr. Brandon. Ma'am, I totally agree with you. My executive 
team and I deal with that all the time, the two--when I grew 
up, my dad was a World War II veteran and my mom was a 
bookkeeper, and it's different today. We have stories where an 
employee's wife is a surgeon, and so it limited his mobility. 
And he was saying, ``Hey, my wife is a surgeon, makes a lot 
more money than I do.''
    And I also know, prior to my coming up, there was a time 
where we lost an employee because his wife was a doctor, and he 
went to another agency because he said, ``Hey, I'm not going to 
leave where I'm at because of my wife's practice'' and so 
forth.
    So that is today's climate that we operate in, and we try 
to be very sensitive to that and try to make win-win situation 
for our employees.
    Mrs. Comstock. And anywhere where we might be able to 
detail that in more detail, I would imagine that may be a cost 
that really hasn't been accounted for. So there may be 
additional costs on that 40 million. I mean, because the cost 
of training somebody when you lose them has to be really bigger 
than where--than it's been evaluated at.
    Mr. Brandon. I think, ma'am, and the cost came out to, 
like, 37 million and change and then another 3 million between 
training and everything else that would be involved, up to, you 
know, the $40 million.
    Mrs. Comstock. Well, thank you.
    And I yield back.
    Chairman Goodlatte. Thank you.
    I have one more question. We've talked a lot about the use 
of these dogs to solve crimes. I would say that perhaps an even 
greater role for them is public safety, preventing explosive 
devices from going off and killing people at different types of 
events or locations. And so, when they are called upon to come 
to search for explosive devices that may not have been 
otherwise detected, they're doing a tremendous service to 
public safety.
    If they're not properly trained because they're in an 
environment where they can't be effectively trained, is it safe 
to say that that could heavily impact the public safety of the 
people of this country? And to the extent that they're also 
trained to work in scores of other countries around the world, 
this is a major liability for public safety if we were to 
change this. Is that a safe statement?
    Mr. Brandon. Yes, Mr. Chairman. And I gave examples of 
after the crime's been committed and finding evidence. And, to 
your point, we informally refer to it as being on the left side 
of boom, which is a priority.
    Recently, we had dogs up at the Boston Marathon, and I 
think we had five canines there. We always have them at the 
Super Bowl and at the request of the Secret Service during the 
inauguration and so forth. And they're vital. They're 
recognized. Our law enforcement partners wouldn't ask for our 
folks to come along with their canines if they weren't seen as 
a valuable deterrent towards preventing anything catastrophic 
from happening.
    Chairman Goodlatte. Thank you very much.
    Deputy Director Brandon, is there anything else you'd like 
to add before we close?
    Mr. Brandon. No, Mr. Chairman and Congresswoman Comstock. 
I'd just thank you for giving me the opportunity on the great 
men and women of ATF. And I refer to my job as the ATF 
cheerleader, but it's legitimate. It's great men and women out 
in the street every day risking their lives. I've had a couple 
shot within the last few months. And we take our job very 
seriously. We're public servants. But our role is to protect 
the public and serve the Nation and be no better partner to our 
State, Federal, and law enforcement partners. And I thank you 
for the opportunity to speak to you today.
    Chairman Goodlatte. Well, thank you. And I have known you 
for several years. And while you do speak up well for the ATF, 
I just want to thank you personally for your own service and 
for helping to lead an organization that does do a great deal 
to create safety for our public.
    Mr. Brandon. Thank you, sir.
    Chairman Goodlatte. This concludes today's hearing. Thank 
you to our distinguished witness for attending.
    And, without objection, all members will have 5 legislative 
days to submit additional written questions for the witness or 
additional materials for the record.
    And, with that--I now have a gavel--this hearing is 
adjourned.
    [Whereupon, at 10:23 a.m., the Committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
